  DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


       Audit of DHS’ Corrective Action Plan 

         Process for Financial Reporting -

                   Report No. 3 





OIG-07-13                       December 2006
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                      December 4, 2006


                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibility to promote economy, efficiency, and effectiveness within the department.

This report is the third of a series of OIG performance audit reports on planned DHS corrective
actions to improve internal control. Improving internal control is a critical objective of the DHS
Financial Accountability Act (Public Law 108-330). The report is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a review of
applicable documents. We contracted with the independent public accounting firm KPMG LLP to
perform the audit. KPMG is responsible for the attached auditor’s report and the conclusions
expressed in it.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation of this
report.




                                      Richard L. Skinner 

                                      Inspector General 

Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Under Secretary for Management
Assistant Secretary for Policy
Assistant Secretary for Public Affairs
Assistant Secretary for Legislative and Intergovernmental Affairs
Chief Financial Officer
Chief Information Officer
Chief Privacy Officer
DHS GAO/OIG Audit Liaison

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Congressional Oversight and Appropriations Committees, as appropriate
                                      DRAFT




Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
